March 19, 2009

STEVEN J. FORTE
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

TERRY J. WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – U.S. Virgin Islands Delayed Mail –
         Transportation Issues (Report Number NL-AR-09-003)

This report presents the results of a Congressional request to review mail service to the
U.S. Virgin Islands (USVI) (Project Number 08XG032NL000). This report focuses on
mail transportation and associated logistics processes. Our objective was to determine
if the U.S. Postal Service transported mail in a timely manner to the USVI. See
Appendix A for additional information about this audit.

Conclusion

The Postal Service did not always transport mail in a timely manner to the USVI,
resulting in mail delays, service degradation, and customer complaints. We found that:

   •   For Periodicals, Package Services, and Standard Mail® classes, some
       prescribed surface transportation modes and schedules did not allow
       achievement of service standards.

   •   There was not always sufficient commercial air capacity for First-Class Mail® and
       Priority Mail®.

   •   There was excessive mail handling, underutilized transportation container
       capacity, and inadequate mail tracking.

   •   Local air transportation within the USVI was not always reliable.

The Postal Service could improve mail timeliness to the USVI by adjusting
transportation modes, schedules, and capacities where possible; fully utilizing
transportation containers; and addressing other transportation process deficiencies.
U.S. Virgin Islands Delayed Mail                                               NL-AR-09-003
 Transportation Issues



We also noted other issues on service standards and mail security (see the “Other
Matters” section in the report).

Inadequate Transportation Modes, Schedules, and Capacity

We concluded surface transportation modes and schedules were sometimes
inadequate for transporting Periodicals, Package Services, and Standard Mail to the
USVI in order to meet service standards. This occurred because management could
not always obtain the most effective transportation due to transportation costs and mail
class transportation modes specified in the Postal Service’s Dispatch and Routing
Policies and National Dispatch Instructions.

Further, some First-Class and Priority Mail could not be transported as scheduled on
contracted air transportation because the Postal Service did not have enough
commercial air lift in Miami, FL, to handle the volume. As a result, some of this mail
was not delivered timely to USVI customers. While mail delivery was impacted, we
acknowledge the challenges management faced, and the efforts it undertook, in
balancing service and cost, and in obtaining sufficient lift given volume fluctuations,
forward contract planning requirements, and contract volume commitments.

The Postal Service has an opportunity to improve the timeliness of mail service by
adjusting air transportation capacities where possible. See Appendix B for our detailed
analysis of this topic.

We recommend the Vice President, New York Metro Area Operations, in coordination
with the Vice President, Southeast Area Operations and the Vice President, Network
Operations:

1. Continue to monitor transportation of mail to the U.S. Virgin Islands to ensure the
   Postal Service transports mail timely and meets established service standards.

2. Review surface transportation mail modes and schedules for Periodicals, Package
   Services, and Standard Mail to the U.S. Virgin Islands to ensure they meet service
   standards and make adjustments as necessary considering logistics policies,
   service, and cost.

3. Review and revise air transportation modes and capacities as necessary to the U.S.
   Virgin Islands for First-Class and Priority Mail and obtain adequate capacity to
   ensure it meets service standards. This should include continuing to actively pursue
   volume shifts among providers to reduce rollover in Miami, FL; obtain the most
   economical, service-responsive transportation; and reduce overall costs.




                                            2
U.S. Virgin Islands Delayed Mail                                                NL-AR-09-003
 Transportation Issues


Management’s Comments

New York Metro and Southeast Area management agreed with the finding and
recommendations. The areas worked cooperatively to take extensive corrective
actions, which included increased internal controls, new or revised methods of
monitoring, and verification and process improvements. Both areas stated they are
working proactively and cooperatively with Headquarters Network Operations, which
they anticipate will produce effective results.

Headquarters Network Operations management stated they are conducting an analysis
to determine the feasibility of routing all mainland Priority Mail directly through Memphis,
TN, to San Juan, Puerto Rico (PR) for distribution and transportation to St. Thomas and
St. Croix, USVI. Management stated that this review is a direct result of the U.S. Postal
Service Office of Inspector General (OIG) audit, and if the routing can be accomplished,
management believes they can improve service and save money by completely
removing Miami, FL, from the network flow. Management believes this is a reasonable
approach because distribution equipment at San Juan, PR is more efficient now than
when the current labeling list instructions and routings were put in place.
Management’s comments, in their entirety, are included in Appendix D.

Excessive Mail Handling

Postal Service facilities at key mail concentration points were excessively looping mail,
reworking mail, and making improper separations, which contributed to mail delays.
This occurred because the Postal Service did not clearly establish and monitor
processes for correctly handling and transporting USVI mail. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, New York Metro Area Operations, in coordination
with the Vice President, Southeast Area Operations:

4. Review and revise mail transportation and distribution processes to the U.S. Virgin
   Islands and oversee key transportation concentration point operations to ensure
   minimal handling of mail.

Management’s Comments

Management agreed with the finding and recommendation. Caribbean District and
Jacksonville Bulk Mail Center (BMC) officials held several meetings and implemented
new or revised processes at the Jacksonville BMC to correct and improve sort plans,
eliminate excessive mail handling, and improve mail arrival and dispatch profiles. In
addition, New York Metro Area management, in coordination with Headquarters
Network Operations, agreed to reevaluate the Priority Mail concentration point plan in
Miami, FL, to determine they can reduce rerouting of mail to the USVI through San
Juan, PR, which would reduce excess handling.



                                             3
U.S. Virgin Islands Delayed Mail                                                                        NL-AR-09-003
 Transportation Issues



The Southeast Area reviewed and revised its processes. The Jacksonville, FL,
Processing and Distribution Center (P&DC) changed sort and separation plans at the
facility effective November 24, 2008, reducing mail processing time and improving
service for the Caribbean District.

Underutilized Mail Transportation Container Capacity and Inadequate Tracking

We identified some unused capacity in sea containers used to transport Periodicals,
Package Services, and Standard Mail from Jacksonville, FL, to San Juan, PR, that
contained mail for the USVI, resulting in transportation delays and unnecessary costs.
This occurred because of insufficient oversight in the container preparation process,
including mail handling, packing, and shipping. We estimate the Postal Service could
improve service by increasing overall container cubic feet utilization by 5 percent,
resulting in savings of approximately $248,000 a year,1 or about $495,300 over 2 years.

We also determined the Postal Service did not adequately track shipments of mail on
sea vessels, impacting mail timeliness. This occurred because of insufficient
coordination and communication between Postal Service officials at the origination and
destination locations and insufficient knowledge regarding the capabilities of the Postal
Service’s Transportation Information Management Evaluation System (TIMES).2 See
Appendix B for our detailed analysis of this topic.

We recommend the Vice President, New York Metro Area Operations, with direct
authority and oversight from the Vice President, Southeast Area Operations:3

5. Maximize sea container capacity out of Jacksonville, FL, to help reduce
   transportation costs.

6. Adequately monitor, track, and control shipments of sea containers on a first-in first-
   out basis.

7. Ensure management fully trains staff on the capabilities of Postal Service
   transportation systems.

Management’s Comments

Management agreed with our findings, recommendations, and monetary impacts.
Regarding container capacity, New York Metro Area management stated they
discussed the container capacity issue with the Southeast Area to ensure that
1
  Estimate based on saving one container out of 20 (or two per week) at 2008 price levels.
2
  The official tracking system the Postal Service uses to manage its surface transportation operations.
3
  The Vice President, Southeast Area Operations, controls transportation processes at Postal Service facilities in
Jacksonville and Miami, FL, to the USVI. Therefore, direction from the New York Metro Area management on
transportation from these facilities to the USVI can be carried out only with authority from Southeast Area
management.



                                                           4
U.S. Virgin Islands Delayed Mail                                               NL-AR-09-003
 Transportation Issues


containers from Jacksonville, FL, to San Juan, PR, and the USVI are maximized. They
also plan to work closely with the Caribbean District to ensure maximization of
containers from San Juan, PR, to the USVI. Southeast Area management agreed to
continue to monitor all data surrounding the sea containers out of Jacksonville, FL, to
ensure maximum utilization. The Southeast Area also agreed that the savings related
to utilization could be achieved.

Regarding container monitoring, tracking, and controls, the New York Metro Area stated
the Caribbean District will use TIMES to enter their load information and confirm all
arrival loads using the system, and stated they shared these plans with the Southeast
Area. Management also stated they will work with the Caribbean District to locally
reimplement yard management-type reporting to continually track the containers. The
Southeast Area has requested that Headquarters Network Operations – Transportation
Field Support issue policy on the proper procedure for dispatch and receipt of mail using
TIMES when dealing with offshore facilities, and stated they will continue to work with
headquarters to implement a proper procedure.

Finally, both the New York Metro and Southeast Areas have agreed that staff should be
trained or retrained on all capabilities of TIMES. The New York Metro Area stated that
they provided refresher training to employees at facilities in Puerto Rico in August 2008
and will expand the training to the USVI with an estimated completion date of March 31,
2009. They stated they will continue to provide refresher training on a semiannual
basis.

Local Contractor Performance

We determined that air transportation in the USVI was not always reliable, impacting
mail timeliness. This occurred because contractor performance needed more oversight.
See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, New York Metro Area Operations, work with the
Vice President, Network Operations, as necessary, to:

8. Ensure air contractors within the U.S. Virgin Islands adhere to established
   schedules.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that
the Caribbean District, in collaboration with Headquarters Network Operations, has
increased both carrier performance monitoring and their review of irregularities, and is
more formally addressing issues with the supplier.




                                            5
U.S. Virgin Islands Delayed Mail                                               NL-AR-09-003
 Transportation Issues


Other Matters

Service Standard Comparison - We determined the established delivery service
standards for the USVI were comparable to a similar U.S. territory, Guam. Our review
of the Postal Service’s National Service Standards showed that it actually takes longer
to get mail from the continental U.S. to Guam than to the USVI, but the additional time is
due to the unique characteristics of, and the added distance to, Guam.

Mail Security - We determined that staff coverage at the St. Thomas Air Transfer Office
was not adequate to provide oversight of mail during transportation. As a result, mail
was sometimes left unsecured. See Appendix B for our detailed analysis of these
topics.

We recommend the Vice President, New York Metro Area Operations, work with the
Vice President, Southeast Area Operations, and Vice President, Network Operations,
as necessary, to:

9. Provide adequate staff scheduling at the St. Thomas Air Transfer Office to ensure
   mail is secure at all times.

Management’s Comments

Management agreed with our finding and recommendation. Management stated that
they will provide mail security at the facility, with oversight by a Postal Service ramp
clerk, and will ensure staffing and scheduling at the facility to manage and monitor mail
received from air carriers.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the finding and
recommendation, and management’s corrective actions should resolve the issues
identified in the report.

The OIG considers recommendations 1 through 5 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We will report $495,340 of monetary impact as funds put to better use in our
Semiannual Report to Congress.




                                            6
U.S. Virgin Islands Delayed Mail                                           NL-AR-09-003
 Transportation Issues



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Monica A. Hand
    Cynthia F. Mallonee
    Katherine S. Banks




                                          7
U.S. Virgin Islands Delayed Mail                                                                           NL-AR-09-003
 Transportation Issues


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Caribbean District manages Postal Service operations in the USVI, which is part of
the New York Metro Area. In managing operations, the New York Metro Area also
relies on direction from the Vice President, Southeast Area Operations, to oversee
transportation to the USVI through Jacksonville and Miami, FL. The USVI consists
primarily of three islands covering about 134 square miles: St. Thomas, St. Croix, and
St. John. The islands are about 90 miles from Puerto Rico and 1,100 miles from
Florida. The population of the USVI is a little over 100,000 people.

The location and geographical dispersion of the USVI creates service challenges for the
Postal Service. The Postal Service’s established delivery service standards for the
USVI vary by mail type as shown in Chart 1 below. See Appendix C for a geographical
breakdown of service standards to the USVI.

                               Chart 1 – Delivery Service Standards for USVI

                                                From the U.S.             From Puerto Rico to USVI
                      Mail Type                Mainland (Days)           and Within the USVI (Days)

                    First-Class                        4                                2
                      Priority                          3                               1
                    Periodicals                      8 – 12                             3
                     Standard                        9 – 13                             4
                 Package Services                    7 - 12                             3



Mail Transportation for the USVI – In attempting to meet established delivery service
standards to and within the USVI, the Postal Service has adopted a complex
transportation network based on mail type, considering service and cost. The majority
of Express®, Priority, and First-Class Mail travels by air transportation from the
mainland to San Juan, PR, on Federal Express (FedEx), United Parcel Service (UPS),
and commercial airlines for onward transportation to the USVI on local contract air
carriers. In addition, the Postal Service first transports some Priority Mail4 to a key
concentration point in Miami, FL, prior to going to the USVI on commercial air,5 either
directly or through San Juan, PR.

Periodicals, Standard, and Package Services mail travels on surface transportation to a
key concentration point in Jacksonville, FL, and then in containers on sea vessels to the
USVI, either directly or through San Juan, PR. Sea vessels leave Jacksonville, FL,
once a week to the USVI and twice a week to San Juan, PR.


4
    From origins in ZIP Codes 270-999, per the National Distribution and Labeling List.
5
    At the time of our review, American Airlines was carrying Priority Mail from Miami, FL, to the USVI.



                                                              8
U.S. Virgin Islands Delayed Mail                                                NL-AR-09-003
 Transportation Issues




            Contracted sea vessel
         delivering mail containers to
         the San Juan, PR, seaport in
                  July 2008.

            Vessels to San Juan, PR,
          leave from Jacksonville, FL,
            twice a week and contain
             mail destined for USVI.




To move Express, Priority, and First-Class Mail between San Juan, PR, and the USVI,
the Postal Service uses local contract air carriers. However, there are no contract air
carrier services directly between the islands of St. Thomas/St. John and St. Croix. In
addition, there is a barge service once a week to transport surface mail classes from
San Juan, PR, directly to St. Thomas/St. John and St. Croix.

Service Concerns – In a letter dated May 1, 2008, Congressional representative to the
USVI, Donna Christensen, along with Congressman Danny K. Davis, requested the OIG
to conduct a review of mail service to the USVI. The request raised transportation
concerns about delayed Priority and First-Class Mail, Periodicals, and parcels, as well
as incidents of missing mail that had gone on for several years without a significant
effort by the Postal Service to address them. The request also raised concerns over the
established delivery service standards for the USVI as compared to the U.S. mainland.

OBJECTIVE, SCOPE, AND METHODOLOGY

This report is one in a series presenting the results of the OIG’s work in response to the
Congressional request and focuses on mail transportation and associated logistics
processes. Our objective was to determine if the Postal Service transported mail timely
to the USVI.

We interviewed Postal Service officials from the New York Metro Area Operations
office, Southeast Area Operations office, Headquarters Network Operations, and the
Caribbean District. We observed operations and interviewed Postal Service officials
and contractors at the following locations.

    •    Jacksonville BMC, P&DC, and other facilities at that location.

    •    Miami Logistics and Distribution Center (L&DC) and other facilities at that
         location.

    •    San Juan P&DC, Detached Mail Distribution Unit, and Airport Mail Facility.




                                              9
U.S. Virgin Islands Delayed Mail                                                    NL-AR-09-003
 Transportation Issues


    •    St. Thomas and St. Croix Air Transfer Offices and various other facilities and
         post offices in the USVI.

We also met with the USVI Congressional Delegate’s liaison officials in St. Thomas and
St. Croix to discuss issues and concerns.



                                                       Sea container with mail destined for
                                                             Puerto Rico and the USVI
                                                                 being unloaded
                                                         at the San Juan, PR, seaport on
                                                                  July 11, 2008.




We reviewed mail transportation records and contracts for air, highway, and sea
vessels. We examined Postal Service computer-generated data of mail shipments and
used the data to analyze transported mail volumes; however, we did not
comprehensively validate or audit the data. We reviewed air and surface contracts and
capacities. We reviewed mail service standards to the USVI and analyzed and
compared the standards to established air and surface transportation modes,
schedules, and capacities. We also compared USVI service standards to those of
Guam, a U.S. territory similar to the USVI.

We conducted this performance audit from May 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

We discussed our observations and conclusions with management officials on
December 11, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

Our report titled Impact of Transportation on Chicago District Performance (Report
Number NL-AR-07-008, dated September 28, 2007) concluded that neither local
transportation nor nationwide network transportation issues were “root causes” or
significant contributors to Chicago District performance challenges. However, we also
concluded that transportation was not efficient or cost-effective and that transportation
issues were potentially causing inaccurate and understated mail counts. Specifically,



                                             10
U.S. Virgin Islands Delayed Mail                                              NL-AR-09-003
 Transportation Issues


we identified unnecessary extra trips that could have been consolidated, significant data
weaknesses, inadequate communication and planning, and inaccurate reporting of mail
in trailers awaiting transport. We recommended that management analyze
transportation requirements, apply any excess transportation resources to other critical
needs, improve transportation planning, and improve data collection by properly training
and supervising employees. Management agreed with our recommendations and their
response laid out various initiatives, plans, and actions to address the
recommendations.




                                           11
U.S. Virgin Islands Delayed Mail                                             NL-AR-09-003
 Transportation Issues


                              APPENDIX B: DETAILED ANALYSIS

Inadequate Transportation Modes, Schedules, and Capacity

Surface transportation modes and schedules to the USVI for Periodicals, Package
Services, and Standard Mail classes were not adequate to ensure mail met service
standards. This occurred because the Postal Service could not always obtain the most
effective transportation due to costs and mail class transportation requirements
specified in Postal Service Handbook M-22, Dispatch and Routing Policies, and
Logistics Orders’ National Dispatch Instructions. In addition, management had not
reconciled the current transportation modes and capacities with published service
standards or monitored modal performance.

For these mail classes, the Postal Service established delivery standards (see Appendix
C) of between 7 and 13 days to the USVI (depending on origin location in the
continental U.S.) and uses a combination of highway and maritime surface
transportation in attempting to meet the standards. Specifically, the Postal Service
moves mail by highway contract routes to the Jacksonville BMC, then prepares and
transports it by sea vessel to the USVI, either directly or via San Juan, PR. However, in
analyzing the modes, schedules, and capacities, we determined mail could take as long
as 21 days to reach its destination, depending on location and the day of the week it is
mailed. For example:

    •   A Parcel Post package mailed from Spokane, WA, to St. Croix, USVI, could take
        as many as 21 days to deliver, 9 days more than the service standard of 12 days.

    •   A Periodical package mailed from San Francisco, CA, to St. Croix, USVI, could
        also take as many as 21 days to deliver (see Figure 1 depicting mail flow),
        10 days more than the service standard of 11 days.

                               Figure 1 – Periodical Mail Flow to USVI




                                                 12
U.S. Virgin Islands Delayed Mail                                                                        NL-AR-09-003
 Transportation Issues


Further, some First-Class and Priority Mail could not be transported as scheduled on
contracted air transportation because the Postal Service did not have enough
commercial air lift in Miami, FL, to handle the volume. As a result, some of this mail
was not delivered timely to USVI customers. While mail delivery was impacted, we
acknowledge the challenges management faced, and the efforts it undertook, in
balancing service and cost, and in obtaining sufficient lift given volume fluctuations,
required forward planning, and contract volume commitments.

We determined that limited commercial air capacity6 for transporting Priority Mail out of
Miami, FL,7 to the USVI resulted in daily mail rollover. This rollover required some mail
diversion to other commercial air or back through the FedEx hub to San Juan, PR, for
final transport to the USVI, via local air transportation cargo carriers.8 This process
added mail handling time and costs, since the mail was handled several times – in
Miami, FL, in San Juan, PR, and in Memphis, TN – and additional air contract
transportation was necessary from San Juan, PR, to the USVI.

Excessive Mail Handling

Staff at Postal Service facilities at key mail concentration points contributed to mail
delays to the USVI by improperly labeling mail, resulting in excessively looping mail,
reworking mail, and making improper separations. This occurred because Postal
Service officials did not clearly establish and monitor processes that ensured correct
handling and transporting of USVI mail. For example, officials at the Jacksonville P&DC
did not ensure the correct separations of Periodicals and Standard Mail bound for the
USVI. We also observed other issues while at the facility indicating that Postal Service
operations upstream were not properly distributing and dispatching mail bound for the
USVI. We observed:

     •   Mail from Denver, CO, incorrectly sent to the Jacksonville BMC for processing.
         The mail should have been sent to the Jacksonville P&DC and had to be
         rerouted from the BMC.

     •   Priority Mail in a Parcel Post container destined for the USVI. These mail types
         have different service standards and transportation modes.

     •   A sack of irregular Parcel Post mail from Greensboro, NC, labeled for San Juan,
         PR, but the sack contained only USVI mail. The sack should have been
         properly labeled according to the National Distribution Labeling List9 to avoid


6
  Daily commercial airline capacity was approximately 3,000 pounds for St. Thomas and 2,000 pounds for St. Croix.
7
  Miami L&DC is the concentration point for Priority Mail originating from ZIP Codes 270-999 (i.e., North Carolina to
Alaska) for destinations in Puerto Rico and the USVI. ZIP Codes 010-269 forward Priority Mail to San Juan, PR, for
distribution.
8
  We attempted to identify the volume of this rollover mail but determined the Postal Service was not identifying or
tracking it.
9
  The National Distribution and Labeling List provides routing information for each mail class.



                                                          13
U.S. Virgin Islands Delayed Mail                                                       NL-AR-09-003
 Transportation Issues


         delays in processing at postal facilities in San Juan, PR, prior to transportation to
         the USVI.

During our observations at the Jacksonville BMC, we also noted that some parcels for
St. John were incorrectly loaded in a sea container bound for St. Croix instead of St.
Thomas. This occurred because an overhead placard mistakenly showed the wrong
ZIP Code range.


                                                       This picture depicts transportation
                                                             process inefficiencies
                                                         for mail destined to the USVI.

                                                       The picture shows a placard for mail
                                                    going to St. Croix, yet improperly includes
                                                                 mail for St. John.

                                                        St. John’s mail should be sent to
                                                                   St. Thomas.



A June 19, 2008, memorandum providing transportation routing instructions from
Jacksonville BMC In-Plant Support contained a similar error instructing that St. John’s
mail be routed to St. Croix instead of St. Thomas. In addition, as stated previously, due
to limited commercial air capacity, mail sometimes has to be rerouted through San
Juan, PR, prior to going to the USVI. This rerouting requires additional handling,
sorting, and tagging processes and adds time to transportation.

Although management corrected some of these issues during our fieldwork, we found
inadequate guidance on processes and insufficient monitoring of transportation and
logistics processes at key concentration points, especially in Jacksonville, FL.

Underutilized Mail Transportation Container Capacity and Inadequate Tracking

We identified unused capacity in sea containers used to transport Periodicals, Package
Services, and Standard Mail from Jacksonville, FL, to San Juan, PR, and the USVI,
resulting in transportation delays and unnecessary costs. This occurred because of
insufficient oversight in the container preparation process, including mail handling,
packing, and shipping. For example, during our observations, we noted the Postal
Service was not fully utilizing large cardboard containers and not stacking palletized
mail in the sea transportation containers.

Based on our analysis of sea containers shipped from Jacksonville, FL, to San Juan,
PR, and the USVI, we believe the Postal Service could increase overall container cubic
feet utilization by 5 percent and reduce the number of containers shipped to San Juan,
PR, by at least 104 a year. At an average cost of about $2,380 per container, this




                                              14
U.S. Virgin Islands Delayed Mail                                                                  NL-AR-09-003
 Transportation Issues


would result in transportation cost savings of approximately $247,670 a year,10 or about
$495,340 over 2 years.




                               Underutilized sea containers at Jacksonville, FL, seaport
                                                      July 2008.

We also found the Postal Service did not adequately track shipments of mail on sea
vessels, impacting mail timeliness. This occurred for two reasons. First, there was
insufficient coordination and communication between Postal Service officials at the
origination and destination locations. Second, transportation officials in Jacksonville,
FL, were not using TIMES to track mail on sea vessels because they were not aware of
these specific system capabilities. Instead, officials used a manual process that did not
provide for real time management of the mail shipments.

Our analysis of one contractor’s sea shipments from the Jacksonville BMC to St.
Thomas and St. Croix for the period of June 2007 through June 2008 determined
management could improve the timeliness of sea container sealing and unsealing
(loading and unloading). For example, even though the transportation contractor
performed as required and the transit time from the Jacksonville BMC to these
destinations was from 6 to 7 days, the average days from the container being sealed to
unsealed was 10 days, and the longest delay from container seal date to unsealed
(unloading) date was 24 days.

An analysis of actual transit times from January through June 2008 for sea containers
from the Jacksonville BMC to San Juan, PR (also containing mail for USVI) found
similar results. The transit time for 104 of these containers11 exceeded the reasonable,
optimum transit time of 4 days by 4 to 10 days. Of the 104, we noted the following:

       •   55 sea containers were 8 days in transit – 4 days over optimum.
       •   26 sea containers were 9 days in transit – 5 days over optimum.
       •   22 sea containers were 10 days in transit – 6 days over optimum.
       •   One sea container was over 10 days in transit – more than 6 days over optimum.

10
     Estimate based on saving one container out of 20 (or two per week) at 2008 price levels.
11
     These 104 containers constituted 14.23 percent of the total sea containers for the period.



                                                            15
U.S. Virgin Islands Delayed Mail                                                                    NL-AR-09-003
 Transportation Issues


We believe using TIMES would have allowed the destinating Postal Service facility to
acknowledge receipt of containers in real time, provide records/data the Postal Service
could easily monitor to ensure timely transit and unloading, and avoid further mail
delays to the USVI.

Local Contractor Performance

We observed that contractors hired to transport mail by air between San Juan, PR, and
the USVI were not always reliable, which sometimes impacted mail timeliness. This
occurred because of management inattention to contractor performance. For example,
our observations and analysis of records at airport facilities in San Juan, PR, St.
Thomas, and St. Croix identified 32 incidents of irregular activity among contractors for
the period January 1 to July 17, 2008. The majority of these irregularities (24) were for
failure to notify Postal Service officials of inaccurate flight schedules and eight were for
failure to load at the flight's origin, meaning that transportation was not available or on-
time for those flights.

In addition, San Juan Airport Mail Facility officials confirmed that one contractor has had
issues with the Federal Aviation Administration, which had grounded their fleet in the
past, including twice during our review. The Postal Service has a contingency plan if
these flights are grounded, so we are not making a recommendation in this area.



             Pictured at right is a Four Star
            Airplane used to transport mail
            from San Juan, PR, to the USVI.

              We identified issues with the
            performance of contract carriers
             between San Juan, PR, and the
              USVI that could impact timely
                      mail service.




Other Matters

Service Standard Comparison – We determined that the established delivery service
standards for the USVI were comparable to a similar U.S. territory, Guam.12 Our review
of the Postal Service’s National Service Standards showed that more time is allowed to
deliver mail from the continental U.S. to Guam than to the USVI. The additional time
the service standards allow is because Guam is substantially further away from the
continental U.S. For example, the transit time for ships carrying mail is 9 days longer to
12
   We selected Guam because it has similar geographical characteristics as the USVI and it provides the Postal
Service with similar transportation challenges. For example, Guam receives much of its Standard and Periodicals
mail from the San Francisco BMC and other mail from Hawaii, similar to how the USVI receives mail from the
Jacksonville BMC and Puerto Rico.



                                                        16
U.S. Virgin Islands Delayed Mail                                                NL-AR-09-003
 Transportation Issues


Guam from San Francisco, CA, than it is to the USVI from Jacksonville, FL. We noted
the following average deviations in comparing the two service standards.

         Mail Type                                Deviation – Guam vs. USVI

         Priority Mail                            Same
         First-Class Mail                         1 day longer to Guam
         Periodicals Mail                         2.58 days longer to Guam
         Standard Mail                            2.57 days longer to Guam
         Package Services                         1.58 days longer to Guam

Given their unique characteristics and the added distance to Guam, we believe the
standards for the two territories are comparable.

Mail Security – We determined that mail was routinely left unsecured and exposed to
the elements at the St. Thomas Air Transfer Office (about 4 hours each day) due to
inadequate staffing at the facility. The Postal Service manager responsible for this
facility stated that the office was working under a split shift, and closed approximately 4
hours every morning to conserve labor hours.

          On July 14, 2008, we visited
          the St. Thomas Air Transfer
            Office and observed the
         facility was closed during the
                    morning.

        Mail routinely sits outside the
        facility on the airport property
            with no Postal Service-
               provided security.




Management Actions During our Audit

During our audit, the Postal Service began addressing some of the reported issues. For
example, management shifted air transportation volumes among contractors to reduce
rollover of mail at FedEx. In addition, local management upgraded some surface mail
types to air transportation to improve timeliness and took action at the Jacksonville BMC
to improve mail sorting processes for USVI mail. In addition, New York Metro Area
management stated that in response to our preliminary findings they:

    •   Established new controls to monitor transportation and processes at
        concentration/consolidation points.




                                             17
U.S. Virgin Islands Delayed Mail                                               NL-AR-09-003
 Transportation Issues


    •   Requested assistance from Headquarters Network Operations on reviewing
        transportation modes for surface mail classes in conjunction with service
        standards requirements.

    •   Continued working with headquarters to reduce volume on FedEx and increase
        volume on UPS where possible and to increase the Transportation Security
        Administration Canine program.

    •   Collaborated with the Southeast Area, Caribbean District, and concentration
        points in Florida to improve dispatch procedures and sort plans.

    •   Worked with the Jacksonville BMC manager to review sea container utilization
        and implement necessary improvements.

    •   Improved tracking and control of sea containers in TIMES to San Juan, PR, and
        made plans for similar improvements in tracking mail directly to the USVI.

    •   Increased USVI air contractor performance monitoring.

    •   Reviewed staff scheduling at the St. Thomas Air Transfer Office to ensure mail
        security.

We appreciate management’s timely actions and acknowledge that these actions
helped address some of the transportation timeliness issues identified in this report.




                                            18
U.S. Virgin Islands Delayed Mail                                                                  NL-AR-09-003
 Transportation Issues



       APPENDIX C: SERVICE STANDARDS FROM U.S. MAINLAND TO USVI13




13
   The numbers depicted in yellow/red represent the maximum number of days allowed for mail to reach the USVI
from the respective origins and meet established service standards.



                                                       19
U.S. Virgin Islands Delayed Mail                            NL-AR-09-003
 Transportation Issues


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                       20
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   21
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   22
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   23
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   24
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   25
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   26
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   27
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   28
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   29
U.S. Virgin Islands Delayed Mail        NL-AR-09-003
 Transportation Issues




                                   30
